V I S A A P P L I CAT I O N

Balance Transfer Form
If you wish Forest Area Federal Credit Union (FAFCU) to pay all or
part of an existing balance(s) on a credit/charge card(s) please fill
out the following information.
____________________________________________________________
Name
____________________________________________________________
FAFCU Account #

I hereby authorize FAFCU to pay all or part of the balance(s) due for
the following credit/charge card(s) by means of a CASH ADVANCE
charged to my FAFCU Visa card.

1. __________________________________________________________
Name of Card Issuer (Citibank, Macy’s, etc.)
____________________________________________________________
Account #
Amount to be paid
____________________________________________________________
Address
____________________________________________________________
City
State
Zip
2. __________________________________________________________
Name of Card Issuer (Citibank, Macy’s, etc.)
____________________________________________________________
Account #
Amount to be paid
____________________________________________________________
Address
____________________________________________________________
City
State
Zip
(Please enclose additional sheets if necessary)

I understand that FAFCU is not responsible for my payment being
late or lost in the mail. I also understand that there may be
outstanding charges on my account and this advance may not pay
off the total balance due. I further understand that if there is an
insufficient limit on my FAFCU credit card, that you (FAFCU) will
pay off my balances in the order listed.
x __________________________________________________________
Member’s Signature
Date
x __________________________________________________________
Joint Applicant’s Signature
Date

Serving Our Membership Family
638 Boyd Street
Fife Lake, Michigan 49633
(231) 879-4154
782 South Cedar St.
Kalkaska, Michigan 49646
(231) 258-2665
6966 Cougar Trail
Kingsley, Michigan 49649
(231) 263-3790
516 N. Michigan Ave.
Manton, Michigan 49663
(231) 824-3060

Forest Area Federal
Credit Union Services
• Share Accounts
• Draft Accounts
• Christmas Clubs
• Money Orders
• IRA’s
• Visa Gift Cards
• Share Certificates
• Night Depository
• Life Insurance
• Auto Insurance Discounts
• Direct Deposit
• Payroll Deduction
• Land Contract Collection
• Bill Paying
• Loans
• Mortgages
• Home Equity Line of Credit
• Loan Protection Insurance –
Life & A&H
• Notary Public Services
• Visa
• ATM/Debit Cards
• Home Banking/Phone Banking
• Electronic Filing of Income Tax
• Fax Service
• Copy Service
• ATM machines at all office locations
• Free Online Bill Pay

CUSO Services:

• Payroll Processing
• Quick Books Training
• Electronic Filing of Income
Tax Returns
• Income Tax Preparation

Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

8.90% - 11.90%

APR for Balance Transfers

8.90% - 11.90%
Based on your credit worthiness obtained thru Transunion

APR for Cash Advances

8.90% - 11.90%
Based on your credit worthiness obtained thru Transunion

Penalty APR and When it Applies

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on purchases if you pay your entire balance by the due date
each month. We will begin charging interest on cash advances and balance transfers on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Based on your credit worthiness obtained thru Transunion

Fees
Annual Fee

None

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction

None
None
1% of each transaction in U.S. dollars.

Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

$20
None
$10

How we Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your Credit
Card Agreement and Disclosures for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Credit
Card Agreement and Disclosures.
The information provided in these disclosures was accurate as of January 2014, the date of printing, and is subject to
change. To obtain information regarding any changes, you may contact the credit union at (231) 879-4154 or write to us at
638 Boyd St., Fife Lake, MI 49633.

NOTICE: Married applicants may apply for individual credit.
Check the box indicating the type of credit you are applying for:
Member Account Number ____________________ Requested Credit Limit __________________
1) Complete applicant section if you are relying only on your own income and assets to establish credit.
Individual
2) Complete other applicant section providing information about your spouse or former spouse if you reside in a community property state (AZ, CA, ID, LA, NM, NV, TX, WA, WI) or
Credit:
if you are relying on alimony, child support or separate maintenance payments to establish credit.
Joint
1) Complete applicant and co-applicant section providing information about you and the other party.
Credit:
2) Each joint applicant must sign below.

x
x
We intend to apply for joint credit: (Applicant) ____________________________________________________
(Co-Applicant) ___________________________________________________

Important information about procedures for opening a new account:
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain, verify, and record information that identifies each person
who opens an account. What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will allow us to identify you.
We may also ask to see your driver’s license or other identifying documents.

If you are applying for credit in your name only, do not complete portion on co-applicant. Check One o Co-Applicant (Joint) o Authorized Users

APPLICANT NAME

HOME ADDRESS (STREET & NO.)

HOW LONG?

PREVIOUS HOME ADDRESS

HOW LONG?

CITY-STATE-ZIP

HOME PHONE NO.

SOCIAL SECURITY NO.

MOTHER’S MAIDEN NAME

BUSINESS PHONE NO.
EMPLOYER

BUSINESS ADDRESS

BIRTH DATE

NO. OF DEPENDENTS

DRIVERS LICENSE NO. AND STATE

GROSS MONTHLY INCOME
$
POSITION

AGES

NET MONTHLY PAY
$
HOW LONG?

CO-APPLICANT NAME

HOME ADDRESS (STREET & NO.)

HOW LONG?

PREVIOUS HOME ADDRESS

HOW LONG?

CITY-STATE-ZIP

HOME PHONE NO.

BIRTH DATE

SOCIAL SECURITY NO.

MOTHER’S MAIDEN NAME
BUSINESS PHONE NO.

RELATIONSHIP TO APPLICANT

DRIVERS LICENSE NO. AND STATE

GROSS MONTHLY INCOME
$
POSITION

EMPLOYER

BUSINESS ADDRESS

NET MONTHLY PAY
$
HOW LONG?

Alimony, child support, or separate maintenance income need not be revealed if you do not wish to have it considered as a basis for repaying this obligation.
Alimony, child support, separate maintenance received under:
written agreement o
oral understanding o
court order o
Other income: $________ per ______. Source(s) of other income: __________
___________________________________________________________________
Is any income listed in this Section likely to be reduced in the next two years?
o Yes (Explain in detail on a separate sheet.)
o No

Alimony, child support, separate maintenance received under:
written agreement o
oral understanding o
court order o
Other income: $________ per ______. Source(s) of other income: _________
__________________________________________________________________
Is any income listed in this Section likely to be reduced in the next two years?
o Yes (Explain in detail on a separate sheet.)
o No

OUTSTANDING DEBTS (Include charge accounts, installment contracts, credit cards, rent, mortgages, etc. Use separate sheet if necessary.)

MORTGAGEE OR LANDLORD

NAME AND ADDRESS (OTHER DEBTS)
AUTO OWNED - MAKE

PAYMENT ADDRESS

APPROX. MARKET VALUE

ORIGINAL AMOUNT
$

ACCOUNT NUMBER

$

$

FINANCED BY

$
Other Obligations - (For example, liability to pay alimony, child support, separate maintenance. Use separate sheet if necessary.)

CHECKING/SHARE DRAFT ACCT. NO.

LOCATION

SAVINGS ACCOUNT NO.

BALANCE DUE
$

$

$
MONTHLY PMT.
$

2)

Are you a co-borrower, co-signer, endorser,
or guarantor on any loan or contract?

ADDRESS (CITY-STATE-ZIP)

If “yes”
for whom?

o Yes o No

$

$

LOCATION

CREDIT INSURANCE: Credit insurance is available for a nominal cost for this loan. If you are interested in credit insurance please check below:
Credit Disability
Single Credit Life o Yes o No
Joint Credit Life o Yes o No
o Yes o No
NAME OF (2) REFERENCES NOT LIVING WITH YOU
1)

MO. PMT./RENT
$

PHONE NO.

RELATIONSHIP

To whom?

Are there any unsatisfied
If “yes”
judgements against you?
Amount $
to whom owed?
o Yes o No
Have you ever had a car or other personal property repossessed by a creditor, filed for bankruptcy, or been a party to a wage assignment or collection suit?
q Yes
q No
If your answer to any part of the question is yes, please give details.
COMPLETE THE FOLLOWING ONLY IF YOU RESIDE IN A COMMUNITY PROPERTY STATE (ARIZONA, CALIFORNIA, IDAHO, LOUISIANA, NEVADA, NEW MEXICO,
TEXAS, WASHINGTON OR WISCONSIN); OR IF ANOTHER PERSON WILL BE JOINTLY LIABLE ON THE ACCOUNT. o Married
o Separated
o Unmarried

Credit Card Pledge Agreement: Secured Cards – If you have selected the VISA SECURED CARD, I herby authorize Forest Area Federal Credit Union to retain any amount in my share/certificate account number
_________________-_________ equal to my approved line of credit (not including the $10 minimum share balance). This amount will be held as security against the credit limit of my Visa SECURED CARD Account.
I understand this sum will not be released during the term of my contract. If I default in making payments, the shares held as security can be applied towards what I owe.

MEMBER SIGNATURE
X

All owners of secured funds are required to be co-borrowers

DATE

MEMBER SIGNATURE
X

DATE

This statement is submitted to obtain credit and I (We) certify that all information herein is true and complete. I (We) also authorize the Credit Union to verify or obtain further information the Credit Union may deem
necessary concerning my (our) credit standing. If this application is approved and a Visa card(s) issued, the undersigned applicant(s) by signing, using or permitting another to use the Visa card(s) agree(s) that the
applicant(s) will be bound by the terms and conditions accompanying the Visa card(s) and all amendments. My (our) signature(s) represent(s) acknowledgement of receipt and agreement to the terms and conditions
of the Visa Credit Card Agreement and Disclosures.

APPLICANT’S SIGNATURE
X

DATE

APPLICANT’S SIGNATURE
X

DATE

CO-APPLICANT’S SIGNATURE
X

DATE

CO-APPLICANT’S SIGNATURE
X

DATE

By signing this contract, you agree that this Credit Union has a security interest, pledge, in all present or future shares and deposit with us. To the extent in which you have a right to withdraw those sums for your
personal use, the Credit Union may transfer from any deposit account to your Visa account if you are delinquent or otherwise in default. In addition, collateral securing your other loans with the Credit Union
account(s) will also secure credit extended under this agreement. If you withdraw all your shares, you are no longer a member of the Credit Union, and you may not receive any more advances under this agreement.

FOR CREDIT UNION USE ONLY

CREDIT LIMIT $______________

o PLATINUM 11.90%
o PLATINUM

APPROVED o
NOT APPROVED o
LOAN COMMITTEE OR LOAN OFFICER _____________________________________

SECURED 11.90% __________________________________________________________________
o PLATINUM 8.90% ____________________________________ DATE _________________________
______________________________________________________________________

VISA ACCOUNT NO. ________________________________________
© 2014 CU Solutions Group

FAFCU 010314

FOREST AREA FEDERAL CREDIT UNION
CREDIT CARD AGREEMENT AND DISCLOSURES

In this Agreement the words “you” and “your” mean each and all of those who agree to be bound by this Agreement; “Card” means a Visa® credit card and any duplicates, renewals, or substitutions the Credit
Union issues to you; “Account” means your Visa credit card line of credit account with the Credit Union, and “Credit Union” means the Credit Union whose name appears on this Agreement or anyone to whom the
Credit Union transfers this Agreement.
1. Using Your Account. If you are approved for an Account, the Credit Union will establish a line of credit
If permitted by law and specified in the notice to you, the change will apply to your existing Account Balance
as well as to future transactions. When required by law to advise you that you have a legal right to reject
for you and notify you of your credit limit. You agree that your credit limit is the maximum amount
any changes we make, we will provide you with an explanation about how to do that.
(purchases, cash advances, finance charges, plus “other charges”) that you will have outstanding on your
Account at any time. Each payment you make to your Account will restore your credit limit by the amount
Either you or the Credit Union may terminate this agreement at any time, but termination by you or the Credit
of the payment, unless you are over your credit limit. If you are over your credit limit you must pay the
Union will not affect your obligation to pay the Account balance plus any finance and other charges you owe
amount you are over before payments will begin to restore your credit limit. You may request an increase
under this Agreement. You are also responsible for any transaction that you initiated and we authorized prior
in your credit limit only by a method acceptable to the Credit Union. The Credit Union has the right to
to termination, even though the transaction is not posted until after termination.
reduce your credit limit, refuse to make an advance and/or terminate your Account at any time for any
The Card or Cards you receive remain the property of the Credit Union and you must recover and surrender
reason not prohibited by law.
to the Credit Union all Cards upon request or upon termination of this Agreement whether by you or the
2. Using the Visa Card. You may use your Card to make purchases from merchants and others who accept
Credit Union. The Credit Union has the right to require you to pay your full Account balance at any time
Visa cards. In addition, you may obtain cash advances from the Credit Union and from other financial
after your Account is terminated, whether it is terminated by you or the Credit Union. If this is a joint Account,
institutions that accept Visa cards, and from some automated teller machines (ATMs), such as the Visa ATM
Section 18 of this Agreement also applies to termination of the Account.
Network, that accept Visa cards. (Not all ATMs accept Visa cards.) To obtain cash advances from an ATM,
13. Credit Information. You authorize the Credit Union to investigate your credit standing when opening
you must use the Personal Identification Number (PIN) that is issued to you for use with your card. You
or reviewing your Account. You authorize the Credit Union to disclose information regarding your Account
agree not to make or permit to be made any illegal transactions on your Account through the use of a Card,
to credit bureaus and creditors who inquire about your credit standing.
a check or in any other manner. We may deny authorization for any Internet gambling transactions.If you
14. Returns and Adjustments. Merchants and others who honor your Card may give credit for returns
wish to pay for goods or services over the Internet, you may be required to provide card number security
or adjustments, and they will do so by sending the Credit Union a credit slip which will be posted to your
information before you will be permitted to complete the transaction.
Account. If your credits and payments exceed what you owe the Credit Union, the amount will be applied
3. Responsibility. You agree to pay all charges (purchases and cash advances) to your Account that are
against future purchases and cash advances. If the credit balance amount is $1 or more, it will be refunded
made by you or anyone whom you authorize to use your Account. You agree not to authorize anyone to
upon your written request or automatically after six months.
use your Account without the prior written consent of the Credit Union. You also agree to pay all finance
15. Additional Benefits/Card Enhancements. The Credit Union may from time to time offer additional
charges and other charges added to your Account under the terms of this Agreement or another agreement
services to your Account, such as travel accident insurance, at no additional cost to you. You understand
you made with the Credit Union. If this is a joint Account, Section 18 also applies to your Account.
that the Credit Union is not obligated to offer such services and may withdraw or change them at any time.
4. Default. You will be in default if you fail to make any minimum payment or other required payment by
16. Foreign Transactions. Purchases and cash advances made in foreign countries and foreign
the date that it is due. You will be in default if you break any promise you make under this Agreement. You
currencies will be billed to you in U.S. dollars. The exchange rate for transactions in a foreign currency
will be in default if you die, file for bankruptcy or become insolvent, that is unable to pay your obligations
will be a rate selected by Visa from the range of rates available in wholesale currency markets for the
when they become due. You will be in default if you make any false or misleading statements in any credit
applicable central processing date, which rate may vary from the rate Visa itself receives, or the
application or credit update. You will also be in default if the Credit Union in good faith reasonably believes
government mandated rate in effect for the applicable central processing date. The currency exchange
that the prospect of payment or performance of your obligations under this agreement is impaired.
rate used on the processing date may differ from the rate that would have been used on the purchase
When you are in default, the Credit Union has the right to demand immediate payment of your full Account
date or cardholder statement posting date.
balance without giving you notice. If immediate payment is demanded, you agree to continue paying
17. Merchant Disputes. The Credit Union is not responsible for the refusal of any merchant or financial
finance charge, at the periodic rate charged before default, until what you owe has been paid, and any
institution to honor your Card. The Credit Union is subject to claims and defenses (other than tort claims)
shares that were given as security for your Account may be applied towards what you owe. You promise
arising out of goods or services you purchase with the Card if you have made a good faith attempt but have
to pay all costs of collecting the amount you owe under this agreement to the extent permitted by law.
been unable to obtain satisfaction from the merchant or service provider (unless a local law states that you
5. Liability for Unauthorized Use-Lost/Stolen Card Notification. You may be liable for the unauthorized
do not have to make such an attempt), and (a) your purchase was made in response to an advertisement
use of your Card. You will not be liable for unauthorized use that occurs after you notify the Credit Union,
the Credit Union sent or participated in sending to you; or (b) your purchase cost more than $50 and was
orally or in writing, of the loss, theft, or possible unauthorized use. In any case, your liability will not exceed
made in your state or within 100 miles of your home.
$50. You can notify the Credit Union by calling (231) 879-4151, or writing to P.O. Box 118, Fife Lake, MI
18. Joint Accounts. If this is a joint Account, each person on the Account must sign the Application for
49633.
the Account. Each of you will be individually and jointly responsible for paying all amounts owed under this
6. Security Interest. If you give the Credit Union a specific pledge of shares by signing a separate pledge
Agreement. This means that the Credit Union can require any one of you individually to repay the entire
of shares, your Account will be secured by your pledged shares. There is no other security for this Account,
amount owed under this Agreement. Each of you authorizes the other(s) to make purchases or cash
notwithstanding anything to the contrary in any other agreement. You may not withdraw amounts that have
advances individually. Any one of you may terminate the Account and the termination will be effective as
been specifically pledged to secure your account until the Credit Union agrees to release all or part of the
to all of you.
pledged amount.
19. Effect of Agreement. This Agreement is the contract which applies to all transactions on your Account
7. Finance Charges. A Finance Charge will be imposed on Credit Purchases only if you elect not to pay
even though the sales, cash advances, credit or other slips you sign or receive may contain different terms.
the entire New Balance shown on your monthly statement for the previous billing cycle within 25 days from
20. No Waiver. The Credit Union can delay enforcing any of its rights any number of times without losing them.
the closing date of that statement. If you elect not to pay the entire New Balance shown on your previous
monthly statement within that 25-day period, a Finance Charge will be imposed on the unpaid average
21. Statement and Notices. Statements and notices will be mailed to you at the most recent address
daily balance of such Credit Purchases from the previous statement closing date and on new Credit
you have given the Credit Union. Notice sent to any one of you will be considered notice to all.
Purchases from the date of posting to your account during the current billing cycle, and will continue to
22. Copy Received. You acknowledge that you have received a copy of this Agreement.
accrue until the closing date of the billing cycle preceding the date on which the entire New Balance is paid
23. Signatures. By signing in the Signature area of the application form that was attached to this agreement
in full or until the date of payment if more than 25 days from the closing date.
when you received it, you agree to the terms of this Agreement. You should detach this Agreement from
The Finance Charge for an UNSECURED VISA PLATINUM billing cycle is computed by applying the
the application and retain it for your records.
monthly Periodic Rate of 0.7416 - 0.9916% which is an ANNUAL PERCENTAGE RATE of 8.90% 24. Final Expression. This agreement is the Final expression of the terms and conditions of this Visa line
11.90% to the average daily balance of Credit Purchases, which is determined by dividing the sum of the
of credit between you and the Credit Union. This written Agreement may not be contradicted by evidence
daily balances during the billing cycle by the number of days in the cycle. Each daily balance of Credit
of any alleged oral agreement.
Purchases is determined by adding to the outstanding unpaid balance of Credit Purchases at the beginning

of the billing cycle any new Credit Purchases posted to your account, and subtracting any payments as
received and credits as posted to your account, but excluding any unpaid Finance Charges.
A Finance Charge will be imposed on Cash Advances from the date of the Cash Advance or from the first
day of the billing cycle in which the Cash Advance is posted to your account, whichever is later, and will
otherwise be calculated in the same manner as explained above for Credit Purchases.
8. Payments. Each month you must pay at least the minimum payment shown on your statement by
the date specified on the statement or no later than 28 days from the statement closing date, whichever
is later. If your statement says the payment is “Now Due,” your payment is due no later than 28 days
from the statement closing date. You may pay more frequently, pay more than the minimum payment
or pay the Total New Balance in full. If you make extra payments or larger payments, you are still
required to make at least the minimum payment each month your Account has a balance (other than a
credit balance). The minimum payment for a PLATINUM 11.90% is 2.0% of your Total New Balance,
but not less than $20.00, plus the amount of any prior minimum payments that you have not made, and
any amount you are over your credit limit. The minimum payment for a PLATINUM 8.90% is 2.0% of
your Total New Balance, but not less than $50.00, plus the amount of any prior minimum payments
that you have not made, and any amount you are over your credit limit. The Credit Union also has the
right to demand immediate payment of any amount by which you are over your credit limit.
9. Payment Allocation. Subject to applicable law, any payments over the required minimum payment
amounts and any credits to balances on your Account will be credited to balances with the highest
applicable APR first. We will then credit payments to lower rate balances in descending order of APRs.
The manner in which we apply any payment to your Account balances may affect the amount of any
payment applied to introductory or promotional financing balances.
10. Other Charges. The following other charges (fees) will be added to your Account, as applicable:
Late Payment Fee: A late charge of $20.00 will be added to your account if you are late making a
payment. Non-Sufficient Funds Check Fee: If a check or share draft used to make a payment on your
account is returned unpaid, you will be charged a fee of $10.00 for each item returned. Collection Costs:
You promise to pay all costs of collecting the amount you owe under this agreement to the extent
permitted by law. International Transaction Fee: A fee up to 1% will be assessed on all transactions
where the merchant country differs from the country of the card issuer.
11. Penalty APR. Before we apply the Penalty APR on any type of transaction or balance, we will
provide you with any notice required by law in advance that informs you which future transactions and/or
outstanding balances are subject to the Penalty APR and when the APRs will increase. If we do not
increase your APRs to the Penalty APR when any of the events triggering the Penalty APR occur, we
reserve our right to increase your APRs to the Penalty Rate if any of these events occur in the future.
If your APRs are increased on any type of transaction due to the triggering of the Penalty APR, the
Penalty APR will be applicable indefinitely to future transactions of that type that occur more than 14
days after we provide you notice about the APR increase.
If we do not receive any required minimum payment within 60 days of the date and time due, the Penalty
APR will be applicable to all outstanding balances and future transactions on your Account. However,
if we receive 6 consecutive required minimum payments by the date and time due, beginning with the
first payment due after the effective date of the increase, we will stop applying the Penalty APR to transactions that occurred prior to or within 14 days after we provided you with notice regarding the APR increase. For balances that we stop applying the Penalty APR to, we will apply APRs that applied prior to
the imposition of the Penalty APR.
12. Changing or Terminating Your Account. The Credit Union may change the terms of this Agreement
from time to time. Notice of any change will be given in accordance with applicable law. Use of your Card
after receiving notice of a change will indicate your agreement to the change.

© 2014 CU Solutions Group

YOUR BILLING RIGHTS - kEEP THIS NOTICE FOR FUTURE USE

This notice contains important information about your rights and our responsibilities under the Fair Credit
Billing Act.
Notify Us in Case of Errors or Questions About Your Bill
If you think your bill is wrong, or if you need more information about a transaction on your bill, write us on
a separate sheet at the address listed on your bill. Write to us as soon as possible. We must hear from
you no later than 60 days after we sent you the first bill on which the error or problem appeared. You can
telephone us, but doing so will not preserve your rights.
In your letter, give us the following information:
•Your name and account number.
•The dollar amount of the suspected error.
•Describe the error and explain, if you can, why you believe there is an error. If you need more information,
describe the item you are not sure about.
If you have authorized us to pay your credit card bill automatically from your savings or checking account,
you can stop the payment on any amount you think is wrong. To stop the payment your letter must reach
us three business days before the automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice
We must acknowledge your letter within 30 days, unless we have corrected the error by then. Within 90
days, we must either correct the error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question, or report you as delinquent.
We can continue to bill you for the amount you question, including finance charges, and we can apply any
unpaid amount against your credit limit. You do not have to pay any questioned amount while we are
investigating, but you are still obligated to pay the parts of your bill that are not in question.
If we find that we made a mistake on your bill, you will not have to pay any finance charges related to any
questioned amount. If we didn’t make a mistake, you may have to pay finance charges, and you will have
to make up any missed payments on the questioned amount. In either case, we will send you a statement
of the amount you owe and the date it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent. However, if our
explanation does not satisfy you and you write to us within ten days telling us that you still refuse to pay,
we must tell anyone we report you to that you have a question about your bill. And, we must tell you the
name of anyone we reported you to. We must tell anyone we report you to that the matter has been settled
between us when it finally is.
If we don’t follow these rules, we can’t collect the first $50 of the questioned amount, even if your bill
was correct.
Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services that you purchased with a credit card, and
you have tried in good faith to correct the problem with the merchant, you may have the right not to pay
the remaining amount due on the property or services. There are two limitations on this right:
(a) You must have made the purchase in your home state, or if not within your home state within 100 miles
of your current mailing address; and
(b) The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if we mailed you the advertisement
for the property or services.

kEEP THIS PORTION FOR YOUR RECORDS

CU Solutions Group • 800.262.6285

